HHS/OIG, Audit - "Review of Medicaid Outpatient Drug Expenditures in
Colorado for the Period October 1, 2002, Through September 30, 2004,"
(A-07-07-04113)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Outpatient
Drug Expenditures in Colorado for the Period October 1, 2002, Through September
30, 2004," (A-07-07-04113)
February 15, 2008
Complete Text of Report is available in PDF format (2.6 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to
determine whether the Colorado Department of Health Care Policy and
Financing's (the State agency) claims for reimbursement of Medicaid outpatient drug
expenditures complied with Federal requirements.
The State agencys
claims for reimbursement of Medicaid outpatient drug expenditures for fiscal
years 2003 and 2004 did not fully comply with Federal requirements.  Of the
$489 million ($255 million
Federal share) claimed, $21,678 (Federal
share) represents expenditures for drug products that were not eligible for
Medicaid coverage because they were terminated drugs for which the
termination dates were listed on the CMS quarterly drug tapes before the drugs
were dispensed.  An additional $459,604 (Federal share) represents expenditures
for drug products that were not listed on the quarterly drug tapes.  Because the
State agency did not verify whether the drugs missing from the tapes were
eligible for Medicaid coverage, these drug expenditures may not be allowable for
Medicaid reimbursement.
We recommended that the State agency (1) refund
$21,678 to the Federal Government
for drug expenditures that were not eligible
for Medicaid coverage, (2) work with CMS to resolve $459,604
in payments for drugs that were not listed
on the quarterly drug tapes and that may not have been eligible for Medicaid
coverage, and (3) strengthen internal controls to ensure that claimed
Medicaid drug expenditures comply with Federal requirements.  The State
agency concurred with our first recommendation, did not concur with our second
recommendation, and partially concurred with our third recommendation.